<html>
<title> - A PATHWAY FOR PEACE IN AFGHANISTAN: EXAMINING THE FINDINGS AND RECOMMENDATIONS OF THE AFGHANISTAN STUDY GROUP</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]






 
                  A PATHWAY FOR PEACE IN AFGHANISTAN:

                       EXAMINING THE FINDINGS AND

                   RECOMMENDATIONS OF THE AFGHANISTAN

                              STUDY GROUP

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 19, 2021

                               __________

                            Serial No. 117-2

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
      
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      


                     Available on: www.govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov
                             
                             
                             
                              ______                       


              U.S. GOVERNMENT PUBLISHING OFFICE 
43-713 PDF             WASHINGTON : 2021                              
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Stephen F. Lynch, Massachusetts      Jim Jordan, Ohio
Jim Cooper, Tennessee                Paul A. Gosar, Arizona
Gerald E. Connolly, Virginia         Virginia Foxx, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Alexandria Ocasio-Cortez, New York   Clay Higgins, Louisiana
Rashida Tlaib, Michigan              Ralph Norman, South Carolina
Katie Porter, California             Pete Sessions, Texas
Cori Bush, Missouri                  Fred Keller, Pennsylvania
Danny K. Davis, Illinois             Andy Biggs, Arizona
Debbie Wasserman Schultz, Florida    Andrew Clyde, Georgia
Peter Welch, Vermont                 Nancy Mace, South Carolina
Henry C. ``Hank'' Johnson, Jr.,      Scott Franklin, Florida
    Georgia                          Jake LaTurner, Kansas
John P. Sarbanes, Maryland           Pat Fallon, Texas
Jackie Speier, California            Yvette Herrell, New Mexico
Robin L. Kelly, Illinois             Byron Donalds, Florida
Brenda L. Lawrence, Michigan
Mark DeSaulnier, California
Jimmy Gomez, California
Ayanna Pressley, Massachusetts
Vacancy

                     David Rapallo, Staff Director
              Daniel Rebnord, Subcommittee Staff Director
                    Amy Stratton, Deputy Chief Clerk

                      Contact Number: 202-225-5051

                  Mark Marin, Minority Staff Director
                                 ------                                

                   Subcommittee on National Security

               Stephen F. Lynch, Massachusetts, Chairman
Peter Welch, Vermont                 Glenn Grothman, Wisconsin, Ranking 
Henry C. ``Hank'' Johnson, Jr.,          Minority Member
    Georgia                          Paul A. Gosar, Arizona
Mark DeSaulnier, California          Virginia Foxx, North Carolina
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Debbie Wasserman Schultz, Florida    Clay Higgins, Louisiana
Jackie Speier, California

                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on February 19, 2021................................     1

                               Witnesses

The Honorable Kelly A. Ayotte, Co-Chair, Afghanistan Study Group, 
  U.S. Institute of Peace
Oral Statement...................................................     5
General Joseph F. Dunford Jr. (Ret), Co-Chair, Afghanistan Study 
  Group, U.S. Institute of Peace
Oral Statement...................................................     6
The Honorable Nancy Lindborg, Co-Chair, Afghanistan Study Group, 
  U.S. Institute of Peace
Oral Statement...................................................  8Q04
Written opening statements and statements for the witnesses are 
  available on the U.S. House of Representatives Document 
  Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              


There were no additional documents entered into the record during 
  this hearing.


                  A PATHWAY FOR PEACE IN AFGHANISTAN:

                       EXAMINING THE FINDINGS AND

                   RECOMMENDATIONS OF THE AFGHANISTAN

                              STUDY GROUP

                              ----------                              


                       Friday, February 19, 2021

                   House of Representatives
          Subcommittee on National Security
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 10:46 a.m., 
via WebEx, Hon. Stephen F. Lynch (chairman of the subcommittee) 
presiding.
    Present: Representatives Lynch, Welch, Johnson, DeSaulnier, 
Speier, Grothman, Gosar, Foxx, and Higgins.
    Mr. Lynch. Again, good morning. The committee will now come 
to order. Without objection, the chair is authorized to declare 
a recess of the committee at any time.
    I will now recognize myself for an opening statement.
    Good morning, everyone. Before we begin our first 
subcommittee hearing of the 117th Congress, I'd like to welcome 
members on both sides of the aisle and congratulate the 
gentleman from Wisconsin, Mr. Grothman, for returning as our 
ranking member. I look forward to working with all of you as we 
conduct meaningful oversight of the many critical national 
security and foreign policy challenges facing the United 
States.
    Since the war in Afghanistan began nearly 20 years ago, 
more than 775,000 of our brave men and women in uniform have 
deployed to Afghanistan. More than 2,400 have made the ultimate 
sacrifice, and another 20,000 have been wounded. The war is now 
the longest in our Nation's history and has cost American 
taxpayers more than $860 billion.
    On February 29, 2020, after more than a year of diplomatic 
negotiations led by U.S. special representative for Afghanistan 
reconciliation, Zalmay Khalilzad, the Trump administration, and 
the Taliban, signed a landmark agreement for bringing peace to 
Afghanistan.
    This agreement was established--excuse me. This agreement 
established a timeline for the complete withdrawal of U.S. 
military forces from Afghanistan by May 1, 2021, so long as the 
Taliban agreed to begin peace talks with the Afghan Government 
and to sever its ties with al-Qaida and other terrorist 
organizations.
    In his first public testimony before Congress on the U.S.-
Taliban peace deal in September of last year--and that was 
before our subcommittee--Ambassador Khalilzad reported that the 
Taliban had not fully complied with their counterterrorism 
commitments under the agreement and stating, I will quote, 
``With regard to terrorism and al-Qaida in this setting, what I 
can say is that the Taliban has taken some steps, based on 
commitments they have made, positive steps, but they have some 
distance still to go,'' end quote.
    Despite these shortcomings, the Trump administration began 
a military drawdown in Afghanistan that even outpaced the terms 
of the February 2020 peace agreement. Today, 2,500 troops 
remain in Afghanistan, even as the Taliban violence continues, 
and the security situation on the ground continues to 
deteriorate.
    Upon taking office last month, the Biden administration 
announced its intent to review the U.S.-Taliban agreement, 
including whether the Taliban remains in compliance with its 
terms. The administration also stated its commitment to protect 
the historic gains made by Afghan women and girls as the peace 
process continues.
    That brings us to this important hearing, and we are 
honored to be joined today by the three co-chairs of the 
Afghanistan Study Group. I'd also like to take a moment to 
thank the nonpartisan U.S. Institute of Peace for the support 
and expertise they provided to the study group during the 
course of its work.
    In the Fiscal Year 2020 omnibus bill, Congress, led by 
Senator Graham, Senator Patrick Leahy, and the Senate 
Appropriations Subcommittee of State Foreign Ops and Related 
Programs, they tasked the independent and bipartisan 
Afghanistan Study Group to, quote, ``consider the implications 
of a peace settlement, or the failure to reach a settlement, on 
U.S. policy, resources, and commitments in Afghanistan.''
    After nearly nine months of review and consultation with 
current and former U.S. and Afghan Government officials, allies 
and partners, and other key stakeholders, the Afghanistan Study 
Group issued its final report earlier this month. The study 
group concluded, in part, that, for the first time since 2001, 
an opportunity now exists to achieve a just and durable peace 
in Afghanistan, but this will not be easy.
    And the current situation has left President Biden with few 
good options, as the study group explained in their final 
report--and, again, I quote--``On the one hand, the Taliban 
have signaled publicly that if all international forces are not 
withdrawn by May 1, 2021, as envisioned in the Doha Agreement, 
they will resume their jihad against the foreign presence and 
will withdraw from the peace process. On the other hand, a 
withdrawal may, under certain circumstances,'' excuse me, 
``under current conditions, will likely lead to a collapse of 
the Afghan state and a possible renewed civil war,'' close 
quote.
    So nearly 20 years of U.S. involvement in Afghanistan might 
very well be defined by the next three to six months, likely 
with profound consequences for U.S. national security and the 
future stability of the region.
    We are thankful for the thoughtful and deeply probing 
analysis of the Afghan Study Group, and we are thankful for the 
patriotic service of the members of that group and our 
distinguished witnesses. We look forward to their testimony.
    And, with that, I will now yield to the ranking member from 
the great state of Wisconsin, Mr. Grothman, for his opening 
statement.
    Mr. Grothman. Thank you, Mr. Chairman. And I'm glad you're 
holding the hearing so quickly. And I'd like to thank the study 
group for showing up today, or whatever, at least for being at 
the hearing virtually.
    As we discussed at last week's markup, it is, I think, 
sometimes easier, you know, if we do have hearings in the 
Capitol, at least the option to it. We've done it on other 
committee hearings, and it seems to work out OK. Not everybody 
has to show up.
    In any event, this year is the 20th anniversary of United 
States being attacked by al-Qaida in 2001. Those brutal attacks 
took the lives of nearly 3,000 innocent Americans in New York, 
Pennsylvania, and The Pentagon.
    Days later, on October 7, the United States launched 
Operation Enduring Freedom and invaded Afghanistan, leading to 
the toppling of the Taliban's terrorist regime. The United 
States has been in Afghanistan ever since.
    Unfortunately, every time we meet to discuss ongoing 
efforts in Afghanistan, the same issues have come up. To date, 
the U.S. taxpayers spent over $1 trillion in Afghanistan, 
either supporting combat or construction. In America's longest 
war, we're just starting to see a light at the end of the 
tunnel.
    President Trump reduced the American footprint in 
Afghanistan from over 100,000 soldiers during the Obama 
Administration to just a few thousand. On February 29 of last 
year, under the strong leadership of President Trump, the 
United States signed a peace agreement to gradually withdraw 
Americans. This agreement will create a safe and prosperous 
Afghanistan by ensuring that it will not be a safe harbor for 
terrorists.
    Now, I understand, and I'll be the first to admit, that 
just packing our bags and leaving is dangerous, which is why 
we're having this hearing today. That type of withdrawal will 
create a vacuum for terrorism, and potentially set back social 
and governmental gains in Afghanistan, not to mention, I think 
it could lead to the possibility of Iran and Russia increased 
presence in the region.
    What I do believe is that it should be our goal to reduce 
our global military footprint and bring troops home. This just 
needs to be done safely and with American national security 
interests at heart.
    I want to thank you and your group for the hard work you've 
done to produce this report. The report makes specific 
recommendations and ought to advance American interests in 
Afghanistan and the region, such as clarifying the end state, 
working to promote the success of the peace negotiating 
process, and having an overarching regional diplomatic 
strategy. Each of your recommendations suggest the need for a 
safe, stable, and independent Afghanistan. It's important for 
the Biden administration to continue the hard work of President 
Trump to advance these goals for achieving independence.
    I look forward to hearing from you today.
    Thank you, Mr. Chairman, and I yield back.
    Mr. Lynch. Thank you, Mr. Grothman. The gentleman yields 
back.
    I will now introduce our distinguished panel of witnesses, 
all of whom are co-chairs of the Afghanistan Study Group, and 
two of whom are old friends, and I had the honor and pleasure 
of working with them in Afghanistan at various times.
    We are honored today to be joined by the distinguished 
former U.S. Senator from New Hampshire, the Honorable Kelly 
Ayotte. Kelly Ayotte represented New Hampshire in the U.S. 
Senate from 2011 to 2016, where she chaired the Armed Services 
Committee on Readiness. Senator Ayotte co-chairs the Commission 
on Health Security at the Center for Strategic and 
International Studies. She is also a board member of the Board 
of Advisors from the Center on Military and Political Power at 
the Foundation of Defense of Democracy and the Aspen 
Institute's Economic Strategy Group.
    General Joseph F. Dunford is a native of south Boston and 
Quincy. General Dunford served as the 19th chairman of the 
Joint Chiefs of Staff, the Nation's highest-ranking military 
officer. In this role, he was the principal military adviser to 
the President, Secretary of Defense, and National Security 
Council from 2015 to 2019.
    General Dunford was commissioned in 1977 and served as 
infantry officer at all levels, to include commanding the 5th 
Marine Regiment during Operation Iraqi Freedom. His experience 
of leading large organizations included serving as the 36th 
Commandant of the United States Marine Corps, the Assistant 
Commandant of the Marine Corps, and commander of all U.S. and 
NATO forces in Afghanistan. Welcome.
    Ms. Nancy Lindborg is the co-chair of the--is also a co-
chair of the Afghanistan Study Group. Nancy Lindborg is 
president and CEO for the David and Lucile Packard Foundation, 
a position she assumed in August 2020. She is responsible for 
the overall management of the foundation and its grantmaking 
activities. She previously served as the president and CEO of 
the U.S. Institute of Peace from February 2015 through August 
2020.
    So, I want to welcome all of you, and thank you for the 
wonderful work that you have done, the patriotic service you 
have rendered to our country.
    So, before I swear in our witnesses, I should note that, 
while the U.S. Institute of Peace facilitated the work of the 
Afghanistan Study Group, the co-chairs are not affiliated with 
the Institute. However, I do wish to thank the Institute for 
the support they provided to the study group.
    The witnesses will now be muted so we can--be unmuted--
excuse me--so we can swear them in.
    I ask you to please raise your right hands.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Ms. Ayotte. I do.
    Ms. Lindborg. I do.
    General Dunford. I do.
    Mr. Lynch. OK. Let the record show that the witnesses have 
answered in the affirmative. Thank you.
    Without objection, your written statements will be made 
part of the record.
    Senator Ayotte, you are now recognized for a five-minute 
summation of your testimony.

STATEMENT OF HON. KELLY A. AYOTTE, CO-CHAIR, AFGHANISTAN STUDY 
                             GROUP

    Ms. Ayotte. Thank you, Chairman Lynch and Ranking Member 
Grothman and members of the committee for taking the time on 
this important and difficult topic.
    We have submitted the Afghanistan Study Group's report as 
our formal testimony, representing not only ourselves, but the 
full complement of members whose congressional mandate it was 
to deliver our analysis and recommendations. It has been an 
honor to chair this study group, supported by the United States 
Institute of Peace, alongside General Dunford and Nancy 
Lindborg, and the esteemed member of--group of members who 
helped us, 12 of them, along with 26 superb senior advisors.
    Collectively, those who contributed to this report have a 
breadth of leadership experience in foreign policy, national 
security, humanitarian aid, Democratic institutions, and 
counterterrorism.
    The study group conducted 40 consultations with over 60 key 
stakeholders in Afghanistan, including U.S. officials and 
former officials, Afghan officials, Afghan members of civil 
society, and the private sector regional stakeholders, allied 
partners, multilateral organizations, as well as academics and 
activists.
    We understand and we're humble about the complexity and 
difficulty of the decisions that need to be made in 
Afghanistan. However, we believe that our recommendations, 
which were just issued in January, are particularly timely.
    This is a crucial moment for Afghanistan and the United 
States. The United States needs to decide whether we will 
continue to keep our troops in the country past May 1, the 
deadline set forth in the Doha Agreement, in order to support 
the peace process, and protect our national security interests.
    There are currently 2,500 U.S. troops in Afghanistan. That 
number has been reduced from 14,500 over the last several years 
during the Trump administration. And now, for the first time 
since 2002, there are almost twice as many non-American NATO 
troops supporting the mission in Afghanistan.
    Yesterday and the day before, NATO defense ministers met to 
discuss the future of our alliance in Afghanistan. Our NATO 
allies have been anxious to know what the U.S. will do. They 
have stood by us for two decades, and how we end our engagement 
in Afghanistan matters to our NATO allies, and may impact our 
ability to call on our partners in the future outside of NATO 
countries.
    Although we thoroughly considered other alternatives which 
we detailed in the report--and you certainly can look at that 
analysis--we recommend that U.S. troops remain beyond May 1. We 
believe a precipitous withdrawal of U.S. and international 
troops in May would be catastrophic for Afghanistan, leading to 
civil war, and allow the reconstitution of terror groups, which 
threaten the United States within an 18-to 36-month period. Our 
presence in Afghanistan has contained these groups and 
protected our homeland.
    Let me be clear. Although we recommend that our troops 
remain beyond May 1, we propose a new approach toward 
Afghanistan, which aligns our policies, practices, and 
messaging across the U.S. Government to support the Afghan 
peace process rather than prosecute a war. Our troops would 
remain not to fight a forever war, but to guarantee the 
conditions for a successful peace process and to protect our 
national security interests to ensure that Afghanistan does not 
become a haven again for terrorists who threaten the United 
States of America.
    Our report calls for a negotiated peace that ends the war 
and allows our troops to eventually come home. We believe that 
it is possible for the United States, with the engagement from 
countries in the region and our NATO partners, to negotiate an 
extension of the May 1 Doha deadline because the process got 
off to a late start, and the conditions indicated in the Doha 
Agreement have not been met.
    Achieving peace in Afghanistan requires conditionality on 
all sides. That conditionality includes the reduction of 
violence by the Taliban, and a demonstrated ability by the 
Taliban to contain terror groups in Afghanistan, and by the 
Afghan Government to deal with corruption and to accept that 
the Taliban will have some role in the future of Afghanistan.
    Sustainable peace will not be possible without an inclusive 
government.
    Chairman, if I may continue 30 more seconds? Thank you.
    Based on our experiences and consultations, it's clear that 
civil society has been greatly enhanced in Afghanistan over the 
last two decades and has an important role to play going 
forward.
    Finally, we recommend an intensified and active regional 
diplomacy to support the peace negotiations in Afghanistan 
going forward. After two decades of war, there is not a 
military solution in Afghanistan for either side, but the best 
hope to protect American interests and help preserve the gains 
made by the Afghan people, is to align U.S. policy to support 
the opportunity for a negotiated peace settlement.
    Thank you.
    Mr. Lynch. Thank you, Senator. I've been known to have a 
slow gavel, so we won't hold people to the exact second.
    But next, we will hear from my dear friend, General Joe 
Dunford, for five minutes for a summation of his testimony.
    General, you are recognized.

    STATEMENT OF GENERAL JOSEPH F. DUNFORD, JR., CO-CHAIR, 
                    AFGHANISTAN STUDY GROUP

    General Dunford. Chairman Lynch, Ranking Member Grothman, 
members of the committee, thank you for the opportunity to 
appear before you this morning, and it's an honor to join my 
fellow co-chairs and to represent the members of the Afghan 
Study Group.
    The Senator outlined our mandate, our methodology, and our 
core recommendations, and I'd like to briefly expand on her 
comments by outlining the key judgments that we made during our 
deliberations, and provide some further context on our 
recommendations.
    Based on the extensive consultations that the Senator 
mentioned with key stakeholders, the experience of the Afghan 
Study Group, as well as the senior advisors, we made key 
judgments about Afghanistan in four major areas: the security 
environment, the stability of the Afghan state, regional 
dynamics, and the current peace negotiations themselves. And I 
want to summarize a few of the more important judgments so you 
can understand the logic behind our recommended approach, but 
also the framing of the alternative pathways that the chairman 
mentioned that are included in the report. These are pathways 
that we considered, but we did not recommend them.
    With regard to security, many will point to the fact that 
the terrorist threat has been reduced, and we agree with that 
assessment, but we believe that that is because of the U.S.-
trained Afghan forces and continued U.S. military presence. 
And, as the Senator mentioned, as a result of our 
deliberations, we believe that the threat can reconstitute 
itself in a period of about 18 to 36 months and present a 
threat to the homeland and to our allies.
    We conclude, and it will be no surprise to members of the 
committee, that the Afghan forces are highly dependent on U.S. 
funding, as well as operational support, and they will remain 
so for some time. And we also conclude that the probability of 
civil war is high in the wake of a precipitous U.S. withdrawal.
    With regard to stability of the state, our analysis and 
recommendations on stability of the Afghan state were very much 
informed by the work that led to the Afghan, or to the Fragile 
State Act, and our judgment is that Afghanistan meets the 
definition of a fragile state. But, despite very real 
challenges, with support, the Afghan Government can deliver 
minimally effective governance.
    And Ms. Lindborg is going to address further how the Afghan 
or how the Fragile State Act informed our recommendations in 
Afghanistan.
    Perhaps the most important judgments we offer concerns the 
opportunity to see enhanced regional and broader diplomatic 
effort in support of the Afghan peace negotiations, as well as 
a possible peace agreement. This issue was raised in a large 
number of our engagements. And there does, in fact, appear to 
be an end state that would satisfy all regional stakeholders, 
to include Pakistan, China, Russia, India, and others.
    And by no means, when I outline these factors, do we 
believe it would be easy, then, to take this and create an 
overarching regional diplomatic approach, but we do offer 
foundational elements for that diplomatic approach, and they 
include an Afghanistan that is at peace with its neighbors; one 
that doesn't allow its territory to be used for attacks on 
other countries; one that is not a venue for proxy warfare; one 
that is not a source of mass migration or illicit narcotics; 
and one that is interconnected with the region.
    Our judgments with regard to the ongoing Afghan peace 
negotiations include the fact that we believe our military 
presence and our diplomatic engagement, which are a physical 
manifestation of U.S. commitment, are actually foundational for 
the Afghan peace negotiations. We believe that continued 
support to Afghan state institutions throughout the peace 
process will be necessary.
    And the Senator mentioned our engagements did highlight 
that the Taliban were not meeting the conditionality of the 
February 2020 agreement, and she pointed out that that was as a 
result of not seeing a broad reduction in violence, and as a 
result of not seeing the Taliban demonstrate the will or 
capacity to prevent al-Qaida from using Afghanistan as a 
platform.
    And I want the members of the committee to know that we 
also relied on the recently released United Nations report as 
well as the January 2021 U.S. Treasury Report when we made our 
judgments about Taliban and their current relationship with al-
Qaida.
    The third element of that, of course, is progress toward 
peace in the former peace agreement, and we haven't seen that 
progress to date.
    It's also important at this point that I highlight, with 
regard to the peace negotiations, that we've placed equal 
emphasis on the roles and responsibilities of the current 
Afghan Government in that peace process.
    Informed by these judgments, we determined our approach in 
the recommendations we made. And I want to emphasize, we did 
look at all the various pathways that we believe are available 
to President Biden before offering the recommendations that the 
Senator outlined. And we did spend as much time on the 
alternative pathways as we did on our recommendation. And we 
made every effort to give this challenge a fresh look, and we 
believe that the way that we've integrated our security, 
diplomatic and assistance recommendations, does provide new 
opportunities, even as we seek to leverage the ongoing Afghan 
peace negotiations.
    And without understating the challenges, I think each of 
the three of us would emphasize that the group was compelled by 
the argument to take advantage of the opening that currently 
exists with an emphasis on meeting our national interests, 
clarity of commitment, acting in accordance with our allies, 
conditionality, and increased emphasis on diplomacy.
    And, Chairman, I look forward to your questions which will 
allow us to examine our work and these recommendations in more 
detail. Once again, thank you very much for conducting this 
hearing on such an important and timely topic.
    Mr. Lynch. Thank you, General.
    Ms. Lindborg, you are now recognized to give us a five-
minute summation of your testimony. Thank you.

 STATEMENT OF HON. NANCY LINDBORG, CO CHAIR, AFGHANISTAN STUDY 
                             GROUP

    Ms. Lindborg. Thank you. And I add my thanks to Chairman 
Lynch, Ranking Member Grothman, and members of the 
subcommittee. Thanks for this opportunity to discuss the report 
of the congressionally mandated Afghan Study Group. It has been 
an honor to serve alongside my two very distinguished co-
chairs, and all the members of the Afghan Study Group.
    My co-chairs have ably described the core approach and key 
recommendations of the report. I will simply go beyond their 
comments to emphasize that we do believe that there is an 
important opportunity to pursue a negotiated peace that has not 
existed before, and we're clear there is no military solution, 
and, therefore, recommend this new approach that, for the first 
time, creates this clear goal of a negotiated peace; enables us 
to align our messaging policies and practices; and, as you 
heard from General Dunford, puts a heavy emphasis on 
partnership with our allies and regional diplomacy.
    These recommendations build on the work of previous study 
groups that have focused on the links between fragile states 
and violent extremism. And, as the former president of U.S. 
Institute of Peace, I was pleased to be a part of two of these 
study groups, and to witness, in December 2019, the signing 
into law of the Global Fragility Act with bicameral and 
bipartisan support.
    These studies, and the Global Fragility Act, informed our 
deliberations by underscoring that fragile states, which are 
characterized by the breakdown of the social compact between 
the state and its people, provide a breeding ground for violent 
extremism. And we learned from 9/11 that state fragility 
presents a threat to our security even when geographically 
remote, and Afghanistan certainly qualifies as a fragile state.
    So, we understand the fatigue of dealing with Afghanistan, 
so let me underscore we are not recommending a blank check to 
the Afghan Government. The report is clear about the importance 
of ensuring that not just the Taliban, but also the government 
of Afghanistan is held accountable for meeting conditions. The 
government must engage seriously in the peace negotiations, as 
well as exercise greater responsibility in curbing corruption.
    The continued corruption and lack of access to justice for 
too many of their citizens consistently results in widespread 
grievances that are easily exploitable by the Taliban. This is 
a common characteristic of fragile states that often leads to 
violent extremism.
    So, the report, therefore, lays out an approach that's 
based on the core principals of the Global Fragility Act: first 
and foremost, a shared goal across our security, development, 
and diplomacy efforts, and then focused coherent international 
support to keep key institutions functioning, in this case, 
until there is a peace agreement; working with our allies, as 
agreed upon in the 2020 Geneva donor conference that lays out 
four years of strict conditions, we should put large 
infrastructure or other expansive projects aside for now, 
continue our support for essential humanitarian assistance, 
basic services, and, importantly, support for civil society.
    The growth of civil society over the past two decades, 
which now includes a new generation of young Afghans, is a 
bright spot, and they have consistently and courageously 
elevated critical values of human rights, women's rights, and 
democracies, which we believe are fundamental to a future 
stable Afghanistan. They are the constituency demanding a 
sustainable peace.
    So, ultimately, a peaceful Afghanistan that doesn't present 
a threat to the region, or to the United States, it will 
ultimately require an inclusive, accountable government able to 
sustain a social compact with its citizens. This will take a 
long time. But first, it requires peace and a stop to the 
fighting.
    So, I will just underscore the moment that we have before 
us by focusing seriously on the peace process. We have, for the 
first time, this opportunity to align messages, policies, and 
actions, because too often in the past, we've pursued military 
victory at the same time as a peace process. We've surged while 
announcing withdrawals. We've let short-term counterterrorist 
interests undermine long-term institution building. Our 
multiple objectives pursued with multiple tools by multiple 
parts of our government bureaucracy have often undermined each 
other.
    We have confused our Afghan partners and regional actors, 
which often leads to hedging behavior that has further 
undermined our ability to achieve our objectives and withdraw 
military forces.
    So, this report calls for a new approach, calls for a 
negotiated peace that ends the war and allows our troops to 
come home with honor, recognizing that this requires effective 
conditionality on all sides, but that a negotiated peace would 
best serve American interests and help preserve the gains of 
the Afghan people over the last two decades.
    Thank you.
    Mr. Lynch. Thank you very much.
    The chair now recognizes himself for five minutes for 
questions.
    So, we're at an important crossroads right now. I do 
appreciate the report. I want to recommend to the members--so 
the report--the Afghan Study Group report is about 88 pages, 
but I thought some of the most helpful material was at the very 
end. And, you know, sort of as--not as an afterthought, but as 
an addendum.
    There are four pathway alternatives. As I understand it, 
the Afghanistan Study Group began to write this report prior to 
a time when we knew who was going to be the next President. So, 
I think it's helpful to know that, in the context of this 
report, the group did not know whether they were advising 
President Biden or President Trump. And I think that makes it a 
better report.
    I do want to say that, of the four pathways and the red-
team analysis, you know, present very different scenarios, but 
I would recommend that members read those to understand the 
likely consequences of choosing one path versus another.
    So, my question to the panel really--and I know you've each 
taken, you know, slices of your responsibility during your 
testimony, but, OK, so May 1 comes. We know that the Taliban 
anticipates complete withdrawal. The previous administration 
pointed to a timeline-specific determination that they would 
withdraw. But, at the same time, we see that the global 
terrorism index has Afghanistan at the top of the list. It has 
had more terrorism than any other nation on the planet. Twenty 
of the largest terrorist attacks on the planet last year, six 
of them were in Afghanistan.
    We've got a pattern of assassination ongoing right now, 
major government officials being assassinated, religious 
leaders assassinated, journalists assassinated, judges 
assassinated, all personnel who are, I think, inimical to 
Taliban rule. You know, they're eliminating their opponents.
    So, my question is: We come up to May 1, and we announce--I 
guess we announce an extension of our presence there, and I'm 
concerned because, even now, even now, we have force protection 
issues, and I think General Dunford has spoken to that 
previously.
    What does it look like? What does it look like? And I don't 
expect that we have an opportunity between now and May 1 to 
negotiate an extension with the Taliban. They seem to be of a 
mind that, you know, they've been led to believe by the earlier 
administration that May 1, we're gone.
    And so tell me what that looks like? Tell me how that rolls 
out in terms of next steps if we chose that path, that we 
extend the date of withdrawal? Does it require us to put in 
more troops for force protection?
    I know that the previous Secretary of Defense, we met with 
him in Afghanistan, and he recommended that there be a minimum 
of 4,500 troops for force protection services--purposes, and 
now, we're a couple thousand below that.
    So, tell me what that looks like on May 1 if we adopt your 
primary recommendation of extending the deadline and adopting 
the four initiatives that you've recommended?
    And anyone who feels, you know, best able to answer that, 
go right ahead. I know you're all equally capable.
    General Dunford. Chairman, I'll start, and then--and let 
the other co-chairs fall in on it. I mean, that is--what you've 
got in that is the critical question. And I would say upfront 
that we have humility about our ability to predict what the 
Taliban will or won't do if we stay past the 1st of May, but 
there are some factors that we considered.
    No. 1 is, what leverage do we have over the Taliban? And 
there is three things that we look at when we think about the 
Taliban; one is they want relief from sanctions; the other is 
they want international legitimacy; and the third is that they 
recognize that, regardless of the future character of the 
Afghan Government, continued international support is going to 
be required.
    So, to mitigate the risks associated with May 1, we're not 
advocating for a unilateral declaration that we remain behind 
after the 1st of May. We're recommending that the Taliban 
actually hear that same message from other regional 
stakeholders, not the least of which is China, Russia, and 
Pakistan.
    And, so, we do think that continued negotiations with the 
Taliban to highlight the fact that we remain committed to the 
February 2020 agreement, and we've demonstrated that by drawing 
down to 2,500, we remain committed. But due to the reasons that 
my co-chairs outlined in their opening statement, we haven't 
had the time to fully implement the agreement, and the core 
conditions outlined in the agreement haven't yet been met.
    So, the mitigation is both in terms of the approach that we 
would take in conjunction with others, as well as the 
narrative, if you will, about why an extension past May 1 is 
required.
    The second question you asked is also an important 
question, which is: Do we need to increase forces if the 
Taliban don't accept an extension past the 1st of May, and if 
they then would re-initiate attacks against U.S. Forces?
    And, Chairman, we heard exactly what you heard. In the 
fall, what we were told by commanders on the ground and the 
Department of Defense was that 4,500 U.S. Forces, in addition 
to the NATO forces that are there, was the minimum level to 
address both the mission as well as protection of our forces in 
the context of the conditions that existed in the fall. And, as 
you've highlighted, those conditions have only gotten worse 
since the fall.
    So, in our judgment, 2,500 would not be adequate should the 
Taliban re-initiate attacks against the United States, and 
we've recommended that the administration engage with the 
leadership to make sure President Biden has that information as 
he makes his decision.
    But I think the important thing is that we believe that the 
impact of the May 1 decision can be mitigated, again, with both 
diplomacy, and by using leverage. Sometimes we think we don't 
have any leverage over the Taliban. They have been using 
violence to gain leverage in the negotiations, but we assess 
that the Taliban recognize that they cannot achieve their 
political objectives merely through violence, and particularly 
in those three areas that I mentioned.
    I'll stop there and see if the other co-chairs want to add 
to that.
    Ms. Ayotte. What I would just add is that the regional 
partners--some aren't partners, some are just regional 
countries--for us, have an interest. While they want us to 
leave, it's--they understand it creates a very big problem for 
them if we precipitously leave in terms of migration, in terms 
of the civil war in Afghanistan to their own interests.
    And, so, they also--in this negotiation process, it is why 
we recommend sort of a re-invigorated regional diplomacy in the 
context not just of the peace negotiations going forward, but 
in renegotiating this May 1 deadline. And we heard that with 
our consultations from the regional countries that we were able 
to connect with, including Pakistan. And, so, I think that will 
also help leverage this with the Taliban.
    Ms. Lindborg. Chairman, I would just add, thank you for 
noting the pathways that are included in the report, and I do 
commend those, because we looked very carefully at what the 
alternatives are, understanding that, you know, these are not 
great choices, but that we believe that the recommendations 
provide the best options, and enable us to test the proposition 
that this is the possibility for peace against an almost 
certain outcome of collapse and civil war were we to leave, 
without the conditions having been met on May 1.
    Mr. Lynch. Thank you very much.
    I will now recognize the ranking member, the gentleman from 
Wisconsin, Mr. Grothman, for his five minutes of questioning.
    Mr. Grothman. Thank you. We've been in a conflict with 
Afghanistan for two decades. Last fall, we had the Doha 
Agreement. I'll ask any one of you: Is it a fair 
characterization to say that, without this agreement, there 
wouldn't be peace talks now between the Afghan Government and 
the Taliban?
    Ms. Ayotte. Yes. I think we need to acknowledge that this 
was important to bring these peace negotiations forward. It's 
hard to go back and know whether it would have happened, but it 
clearly--the push toward the peace negotiations was a very 
important step by the Trump administration that brought us to 
this point.
    Mr. Grothman. When we negotiate with the Afghan--with the 
Taliban, do you feel that it is enough a monolith or whatever 
that they have the ability to stick with their side of the 
deal?
    General Dunford. Ranking Member Grothman, what I would say 
is that we believe the leadership of the Taliban can speak with 
one voice, and the evidence of that was, in the early days when 
there was an agreement to have a complete cease-fire for a 
period of time, the Taliban actually had the authority and had 
the ability to effect that cease-fire.
    So, we know that there is a degree--a high degree of 
control by Taliban leadership over all their fighters. I would 
not, my own judgment, use the word ``monolith,'' and it's not 
automatic that, if we make an agreement with Taliban 
leadership, that all their fighters across Afghanistan will 
stop fighting.
    I do think it's fair to say that we can affect a 
significant reduction of violence and set conditions such that 
the Afghan forces are much more capable of providing security 
should the character of government change.
    Mr. Grothman. You mentioned before the problems we have 
with the current Afghan Government. What do the--I guess 
because Afghanistan itself is nowhere near a monolith, what do 
the people of Afghanistan think right now of the Taliban, of 
the Afghan Government? And I talked to a guy who was over in 
Afghanistan about four years ago, who worked for me a little, 
What do they think of the United States?
    General Dunford. Yes. I can start just--my mic's open and 
then let the other co-chairs jump in. But the one thing that we 
heard universally from the Afghans--and we spent a lot of time, 
as the other co-chairs mentioned, with civil society, Afghan 
leaders, and there is a very strong consensus for peace inside 
of Afghanistan. But, to be candid, not peace at any cost.
    And they all emphasized the need to protect the gains that 
have been made in Afghanistan over the past two decades with 
regard to civil society, women, and so forth. And they also 
said that any future Afghanistan must be consistent with the 
values that are memorialized in the current constitution.
    And, with regard to--and now I'm not speaking of the 
Taliban, but I'm speaking about Afghans that are in the 
government and civil society. I think, universally, they 
recognize the important role that the United States continues 
to play in brokering a peace agreement and bringing stability 
and security to Afghanistan. I don't think it would be an 
overstatement to say that they view us as indispensable in that 
regard.
    With regard to the Taliban, I think I would just conclude 
by saying there is a high degree of mistrust across Afghan 
society about the Taliban, and about the ability to have them 
included in a future government. But this is really the gist of 
what has to occur inside of the Afghan peace negotiation is, 
they've got to come up with a framework within which there can 
be a character of government that is consistent with the values 
of the constitution, and yet, allows the political differences 
that clearly exist in Afghanistan to be settled without force.
    And I'll let the other co-chairs followup if I've missed 
something.
    Ms. Ayotte. One thing I would comment on is that the 
Afghanistan of today is different than the Afghanistan that the 
Taliban ruled 20 years ago, and that's because of civil 
society. And the notion that the members of this civil society 
and the people are going to accept that same kind of rule, I 
think, is a very different situation and that that won't be 
acceptable to them if we go back to 20 years ago.
    So, just a point that we heard over, and I'm sure many of 
you have also heard that when you traveled to Afghanistan.
    Mr. Grothman. Yes. It's kind of interesting. I was struck 
by the number of young people on social media. I mean, that, by 
itself, I would think, would dramatically change the thinking 
of the average person as opposed to the more agrarian society 
that we had 20 years ago.
    I'll narrow it down, though, because I talked to a guy who, 
as I said, worked for me. Do the average Afghans have a high or 
low opinion of the United States? Does it bother them that 
they're there? Do they like us? Do they view us as a positive 
force, or do they view us as a bunch of outsiders and they wish 
we'd get out of there?
    General Dunford. My own experience, in that regard, is it's 
not one voice. I think all Afghans, out of pride, would wish 
that they could protect themselves and not require U.S. Forces 
to be there. I think that's a fair statement.
    Clearly, those of the same ideology as the Taliban want the 
United States gone. I think, universally, the assessment of the 
rest of the Afghans, even those that want to see us eventually 
gone, recognize, that at least for the near term, and 
particularly in the context of bringing about peace and getting 
a peace agreement for the Afghan peace negotiations, they want 
the United States, perhaps, to leave at some point, but not 
precipitously.
    Mr. Grothman. OK. I'll give you another question about, in 
general, the Afghan Government.
    Mr. Lynch. The gentleman's time has expired.
    Mr. Grothman. Oh, I'm sorry.
    Mr. Lynch. That's OK. That's OK. And, if we want to go back 
to a second round, we can do that.
    But I do want to recognize the chairwoman of the full 
committee, Mrs. Maloney, for five minutes for her questioning.
    Mrs. Maloney. Thank you so much, Chairman Lynch, and thank 
you so much, Ranking Member Grothman, for your continued 
efforts on the oversight of the U.S. war in Afghanistan.
    Last Congress, under your leadership, this subcommittee 
held multiple hearings and briefings that highlighted the 
importance of U.S. support for women and girls in Afghanistan. 
In fact, you and I received a letter last week from the Afghan 
Government's chief negotiator along with four female diplomats 
on the Afghan team involved in the peace process.
    Mr. Chairman, I would like permission to enter this into 
the hearing record. In the letter, the negotiators wrote that 
our hearings, quote, ``sent a strong message that there is 
accountability and that the women and negotiators must be 
listened to, respected, and that the issues they speak about 
must be taken seriously.''
    They said, and I quote, ``The two hearings also gave us the 
assurance that we will not be alone in demanding a just and 
practical political settlement that one that guarantees equal 
rights and opportunities for all people,'' end quote.
    Ms. Lindborg, do you think public messaging from 
Washington, including during congressional hearings, sends a 
strong signal to the Taliban that the U.S. expects them to 
respect and protect the rights of Afghan women and girls?
    And thank you, again, Mr. Chairman, for your leadership on 
this, and put this in the record.
    Mr. Lynch. Without objection, the lady's submission is 
accepted into the record.
    Mrs. Maloney. So, Ms. Lindborg?
    Ms. Lindborg. Great. Thank you, Chairwoman Maloney, and 
thank you for your leadership on these issues.
    I think that the letter underscores both the extraordinary 
progress of the Afghan women over the last several decades and 
the important role that they're playing now. And, absolutely, I 
think it's important for there to be continued signals and 
expressions of support for preserving those gains, and also for 
ensuring that they have a voice at the negotiating table.
    We know from research that having a voice at the table 
makes a difference in creating a more lasting and durable peace 
agreement.
    So, thank you for entering that.
    And I would--I would also note, building on the previous 
question, that women in, particular, are terrified that the 
U.S. will leave precipitously, and understand that their--that 
we haven't met the conditions yet for the peace negotiation to 
really move forward in a more effective way.
    Thank you.
    Mrs. Maloney. Thank you, and I'm also encouraged that 
President Biden's National Security Advisor recently made clear 
to his Afghan counterpart that the gains that have been made by 
women and other minority groups must be protected as part of 
the peace process.
    Nevertheless, I think we can all agree that the gains 
Afghan women have made since 2001 are fragile, and I have deep 
concerns that they may be at risk if the Taliban returns to 
power.
    The study group itself acknowledges that there is, quote, 
``realistic and widespread fear that women will be marginalized 
in the public space should the Taliban return.''
    And, in a recent report, the special IG for Afghanistan's 
reconstruction cautioned that a narrative has formed in 
Afghanistan that, quote, ``The country can either have women's 
rights at the cost of peace, or peace at the cost of women's 
rights,'' end quote.
    Senator Ayotte, if the Taliban overrun or enter a power-
sharing agreement with the Afghan Government, do you expect an 
effort to roll back the rights of Afghan women and girls?
    Ms. Ayotte. Chairman, thank you.
    First of all, I think this is a very important issue for 
the negotiations. And we heard loud and clear from civil 
society, especially women's groups, that they did not want to 
be marginalized, and that's why the government itself does have 
women negotiators at the table.
    And just to put in some perspective, as it's outlined in 
our report, in 2001, when the Taliban were in Afghanistan, zero 
girls were educated. Now, over 3 million girls are educated. 
There are women in the government; there are women in the 
society, in the private sector.
    And so, in order for a peace agreement to be successful, 
this issue of inclusivity will have to be addressed, because I 
do not believe that the women who are engaged now are going to 
accept a government that has no role for them or where they are 
marginalized. So, this is obviously a very key issue at the 
negotiating table.
    Mrs. Maloney. Thank you.
    And, General Dunford, last, what impact would that 
ultimately have on the future security and stability of 
Afghanistan, and what is the best way for the U.S. to continue 
to insist that women's and girls' rights must be respected in 
any agreement? General Dunford?
    General Dunford. OK. Thank you, Chairwoman Maloney.
    And what I would say is that we highlighted the issue of 
women's rights and values in a future Afghanistan consistent 
with the constitution for two reasons, and it wasn't just 
because it was the right thing to do; we actually assessed that 
stability and security cannot be achieved unless we have a 
future Afghanistan consistent with the values in the 
constitution and unless women's rights are respected. And that, 
again, was not the--just the assessment of the group. It came 
from those 60 engagements that we conducted, and we heard this 
universally.
    And I believe the second part of your question is a really 
important one, is, so--well, how do we ensure that this 
happens? And this is why we believe that our facilitation of 
the Afghan peace negotiations and subsequent support for any 
peace settlement and implementation is so critical, because I 
think the United States, both with regard to resources and 
influence, can assist the Afghan Government in forming a future 
government where the character actually does respect women, and 
again, those values memorialized in the constitution.
    Mrs. Maloney. Thank you.
    In closing, thank you all for all of your work. And thank 
you, Chairman and Ranking Member. We have seen, again and 
again, that women's participation in resolving conflict is 
essential to sustainable peace. It is critically important that 
we in the United States continue to support the women and girls 
of Afghanistan and around the world.
    Again, thank you for your work, and I yield back.
    Thank you, Mr. Chairman.
    Mr. Lynch. Thank you. Thank you, Madam Chair.
    And the chair now recognizes the gentleman from Arizona, 
Mr. Gosar, for five minutes.
    Mr. Gosar. Thank you, Mr. Chairman, and thank you for 
having this hearing this morning.
    I want to begin with part of the premise of the study 
group's findings, which is adapting the current withdrawal 
structure in place from one focused on counterterrorism and 
troop reduction to one where troop withdrawal is based on 
permanent Taliban cease-fire, and the cessation of 
indiscriminate violence against the Afghan people.
    Essentially, we're discussing war termination and banking 
the concept that U.S. involvement in a current civil war in 
Afghanistan will end when the primary threat, the Taliban, has 
committed to peace.
    My main concern here is that we're hanging our future plans 
on such an expectation that seems rather impossible. Since 
2001, United States has been attempting to meet these 
conditions with little success. In fact, this year----
    Mr. Lynch. Mr. Gosar, you might be muted. Sorry.
    I think Mr. Gosar is freezing up. Let's see if he comes 
back.
    [Audio malfunction.]
    Mr. Lynch. Mr. Gosar, you were muted or frozen for a good 
portion of that testimony, or question. I'm not sure if we can 
correct the situation.
    Mr. Gosar. Can you hear me?
    Mr. Lynch. All right. We're going to try to resolve Mr. 
Gosar's technology problem. But, in the meantime, I would like 
to go to the next Republican member, the gentlelady from North 
Carolina, Ms. Foxx.
    Ms. Foxx. Thank you, Mr. Chairman. I appreciate it.
    And I want to thank our witnesses very much for their very 
good presentation and your opening comments, and I'd like to 
wish Chairwoman Maloney a happy birthday. I thank--I don't know 
if she's still there, but I wish her a happy birthday.
    To the witnesses today--and, again, thank you all for being 
here and for your work. Your report--I'm wanting to ask the 
same question that Chairwoman Maloney asked--I'm glad she did--
about the women in Afghanistan, and I'm pleased to hear your 
responses on that.
    Your report says that an irresponsible withdrawal of U.S. 
Forces risks a new civil war in Afghanistan. I agree that a 
withdrawal should be done responsibly, but I'm concerned that 
the threat of a civil war may not be avoidable.
    The Department of Defense lead inspector general report on 
Operation Freedom Sentinel, released this week, states that the 
Taliban have not agreed to any substantive matters in the peace 
talks and said that the group is deploying violence across the 
country to increase its leverage in the negotiations.
    Is it possible that the Taliban have no interest in coming 
to a lasting peace and that a civil war will be the ultimate 
outcome if U.S. troops leave Afghanistan?
    And I'll ask that question to General Dunford.
    General Dunford. Congresswoman, thank you for that 
question.
    Look, my short answer is, is it possible that civil war 
will result regardless? I would have to say in candor, yes, it 
is possible.
    I think what is important, though, for us to consider--and 
I think it really gets to where Congressman Gosar was going as 
well--is what's different today than has been the case over the 
past 18 or 19 years, and I think the difference is that we have 
the Taliban at Doha in discussions with the Afghan Government. 
And we have an opportunity in a short period of time to 
determine whether or not they're sincere in wanting peace, and 
we have an opportunity in a short period of time to see if 
there's a framework within which the compromise that's 
necessary for a reduction in violence and in a future 
government can be determined.
    And so, Congresswoman Foxx, that's why we offered the 
alternate pathways, because our real recommendation is: Take 
advantage of this opportunity as it exists right now and it 
hasn't existed for the last 18 or 19 years. And all of the 
other pathways that we outline in the report will still be 
available to President Biden subsequent to determining whether 
or not the Afghan peace negotiations can be successful or not.
    So, that's why we really do focus on taking advantage of 
the opportunity and testing the theory of the case. Because we 
are humble, I think, all of us, about our knowledge of what the 
future will be, but we have to deal with what the facts are 
that we know. And the facts that we know are that there is 
ongoing discussions at Doha, so let's see if we can make 
something of them.
    Ms. Foxx. Thank you.
    Senator Ayotte, your report highlights the need for 
continued economic support for the essential institutions of 
the Afghan state, including security institutions.
    I understand the need to provide support for these 
institutions to ensure stability within the country. However, 
it concerns me and it concerns my constituents a lot that we 
have been investing in Afghanistan for the better part of 20 
years and likely will for the foreseeable future.
    Can you discuss how much longer you envision the U.S. and 
our partners' aid being necessary to support Afghan 
institutions and how we can assure that that aid is being used 
as efficiently as possible?
    Ms. Ayotte. Yes. Thank you, Congresswoman Foxx.
    I think your constituents rightly are concerned about this. 
And I know that all the work done by the inspector generals 
over the years in Afghanistan have highlighted areas where we 
have invested, for example, in some of these major 
infrastructure projects that really have not borne fruit and 
have wasted taxpayer dollars. So, this is a very important 
issue to focus on.
    Yes, we will need to continue to support the Afghan 
institutions. In our report, we lay out that that should be 
done consistent with the outline of the Global Fragility Act, 
which all of you passed, and focusing really on targeted aid 
that supports the major institutions, and hold that aid as 
targeted, conditional; hold people accountable.
    And, also, in terms of the Afghan National Security Forces, 
it's going to be important that we continue to support them. 
Because without that support, obviously, the security situation 
in terms of protecting our own national security interests will 
devolve further. So, we do need to continue to do that.
    I'm also, with your permission, going to ask my colleague 
Nancy Lindborg, who has really worked very closely on this 
particular issue, to jump in, if that's OK.
    Ms. Foxx. Certainly. Thank you.
    Ms. Ayotte. Thank you.
    Ms. Lindborg. Yes. Thank you, Congresswoman Foxx. It's 
absolutely an important question. The report details how we can 
reduce the levels of assistance while providing the kind of 
focus that Senator Ayotte just identified.
    And, also, we have the opportunity to work more closely 
with our allies and our partner donors to move forward what was 
agreed upon in Geneva in November: four years of very strict 
conditions, and conditions based on holding the Afghan 
Government responsible for upholding the kind of rights and 
rule of law and reduction in corruption that are absolutely 
essential for the kind of state that can more effectively be 
stable into the future.
    We've seen that the lack of justice for particularly rural 
residents creates the opportunity for the Taliban to come in, 
exploit those grievances, and gather recruits.
    So, it's important for the security of the country to have 
the kind of assistance that promotes that better governance. 
That's the core of the Global Fragility Act.
    Ms. Foxx. Thank you.
    Mr. Chairman, I don't have a clock, but I suspect my time 
has expired, and I will yield back.
    And, again, thank the panelists, and thank you, Mr. 
Chairman, for your leadership on this.
    Mr. Lynch. I thank the gentlelady.
    The gentlelady yields back.
    The chair now recognizes the gentleman from Vermont, Mr. 
Welch, for five minutes.
    Mr. Welch. Thank you very much.
    I really appreciate the panelists and your report that is 
extremely helpful, and I thank all of you.
    And I want to particularly thank, of course, General 
Dunford for your service but also, through you, for the brave 
men and women who served us and all those who died. Thank you, 
General.
    A couple of things.
    No. 1, Senator Ayotte mentioned that the effort here is to 
promote a peace process, not a war process, is the ultimate 
resolution. But we've been there 20 years, and I've come to 
certain conclusions.
    One is, we can't trust the Taliban. That's pretty obvious. 
No. 2, we can't have confidence in the Afghan Government. It's 
been corrupt; it's been ineffective. No. 3, if we're going to 
have a process that requires us to trust the negotiated outcome 
with the Taliban, I'll lack confidence in that.
    And, General Dunford, I think you outlined areas where we 
have some leverage. And those were that the Taliban wants 
relief from sanctions, it wants international recognition, and 
it wants international help.
    So, the question I have is not so much about the May 1, 
because we know that's a somewhat subjective date, and there 
can be arguments for and against. And you've made, quite well, 
the arguments about why that might want to be delayed.
    But why not have a strategy where we just flat-out 
recognize that the Afghan Government has failed and has not 
been a reliable partner, that the Taliban is not going to be 
any trusted partner in the future, but where we utilize our 
leverage as opposed to our military, those three things you 
mentioned, with robust international diplomacy, where the 
regional countries, as Senator Ayotte mentioned, have an 
interest in stability as opposed to a refugee crisis? Why not 
focus on that and recognize that what Trump has been doing, 
bringing troops home, is overdue and made some sense?
    General Dunford?
    General Dunford. Congressman, thanks so much.
    I think you have just succinctly captured the core 
recommendation that we make. And, in fact, we don't believe 
there's a military solution. And we do believe, both with 
regard to the Afghan peace negotiation but as well as long-term 
integration that you're suggesting, that the key element of 
that has to be regional diplomacy and then broader 
international effort to bring about those conditions.
    And if there is any hope for a future government that, in 
the character of the government, actually does have some 
legitimacy and is able to do the things necessary to bring 
about peace and stability, if that's ever going to happen, it 
has to be exactly as you've outlined: through a very strong and 
concerted diplomatic effort and in conjunction with our 
partners in the region and the international community.
    So, Congressman, I guess what I would say--and I think I 
say this on behalf of the entire Afghan Study Group--what 
you've just outlined is certainly a conclusion that we drew in 
our deliberations after 10 months of talking to people and 
studying the problem.
    Mr. Welch. OK.
    One other thing. We accepted, or stumbled into, a nation-
building goal in Afghanistan, which I think most people now 
acknowledge has not worked, as opposed to counterterrorism.
    And one of the concerns that was expressed was that 
Afghanistan would become a haven for terrorism. But I want to 
challenge that Afghanistan is any different than many other 
areas around the world where there is terrorism brewing where 
we don't have occupation or military forces.
    Why would we have that policy in Afghanistan when there are 
so many other parts of the world where we face a similar 
terrorist threat?
    General Dunford?
    General Dunford. Sure, Congressman. I think there are a 
couple factors. One is geography. And we saw what geography 
means back in 2001. And the other is the historical and 
cultural significance of the Khorasan and what that would mean 
to the global jihadist movement. And those are two factors that 
make Afghanistan different.
    I also think, Congressman--and we didn't spend a lot of 
time on this in the Afghanistan Study Group, but certainly I 
feel confident in making this assertion--when you look at South 
Asia as a whole and you look at the possession of nuclear 
weapons by two states in the region, there's no question in my 
mind that we have long-term security interests in South Asia.
    There's also no question in my mind that Afghanistan, were 
it to become ungoverned spaces, has a high probability of being 
a location of a proxy war between two states that have nuclear 
weapons.
    So, from a broader security perspective, I do believe 
Afghanistan is different.
    I take your point that we're dealing with, you know, 
extremists with the same ideology from West Africa to Southeast 
Asia. And we actually do need a global strategy to deal with 
that that focuses on the flow of resources, the flow of foreign 
fighters, and the basic ideology that unites those groups.
    But I do think there are some geographic, some cultural, 
and some historical factors of Afghanistan that do make it 
unique. And, as the chairman outlined, it's because of those 
factors that it's No. 1 on the Terrorist Index. It's because of 
those factors that there's at least two groups who aspire to 
attack the United States directly and we believe, if left 
unchecked, would have the capability to do so.
    Mr. Welch. OK. Thank you, General.
    Thank you, Mr. Chairman. I yield back.
    Mr. Lynch. I thank the gentleman.
    The gentleman yields back.
    The chair now recognizes the gentleman from Louisiana, Mr. 
Higgins, for five minutes.
    Mr. Higgins. Thank you, Mr. Chairman, and I thank our 
panelists. This is a very important discussion.
    Most of my constituents, and perhaps Americans from sea to 
shining sea, grow weary of this endless conflict. And many 
historians generally agree and the archaeological record 
generally suggests that the entire region that we're 
discussing, including, of course, Afghanistan, has been engaged 
in some level of continuous war for 7,000 years, with 
essentially brief periods of relative peace breaking up that 
continuous war.
    In modern history, we've been there for 30 years. And, 
General, I would ask you, realistically, sir--you've been a 
voice of solid reason, and we thank you for your service and 
your experience and your insight here. But at what point is 
enough, enough for American engagement in this region?
    And why, if there's a presence required from American 
military force, why does that have to include actual boots on 
the ground, soldiers on the ground, given the vast power of our 
Navy and the technology and success of our rapid deployment 
capabilities? Why do we need boots on the ground in this 
region, at this point, moving forward?
    I realize that there's an opportunity for peace, but I'm 
quite sure they've had that discussion over the course of the 
last 7,000 years. Why would it work now? And why do we need 
boots on the ground there?
    General Dunford. Thank you, Congressman. You ask a really 
important question. And, as you can imagine, I've been involved 
in several similar conversations about Afghanistan for now at 
least 10 years.
    And I do understand your constituents growing weary. I do 
think that they need to understand that we've not had a U.S. 
loss of life in a year. And they also need to understand that 
we've gone from over 100,000 forces on the ground in 
Afghanistan when I was in command in 2013 and 2014 to 2,500 
forces right now, which, in the context of our grander 
strategy, is certainly, in my judgment, a sustainable level.
    But your question about why on the ground is really an 
important one. And I want to emphasize that, in our study, we 
focused on how to address our national interests, not whether 
to address our national interests.
    We know that the President, any President, can make a 
judgment to assume risk against our national interests, either 
because they conclude that we are unable to address them at a 
sufficient level of resourcing or they want to accept that risk 
and reprioritize those resources somewhere else.
    But why boots on the ground? And I've looked at this 
problem extensively. In order to be effective in conducting 
counterterrorism, you have to create an ecosystem, if you will, 
of intelligence. And we would not have the networks available 
to us from an intelligence perspective, we would not have the 
platform availability--that is, the systems that allow us to 
collect that intelligence--and we wouldn't have the ability to 
strike quickly with the resources necessary to destroy 
terrorists once the intelligence develops their location.
    So, were we to do it from outside of Afghanistan, you would 
just merely have a geology problem and a responsiveness 
problem; you would not be as effective.
    But, Congressman, I think we would not argue that a 
President could choose to accept risk. I view a presence of 
approximately the size we have right now in pursuing peace as, 
at least in the interim, equivalent to term insurance, where we 
have a sufficient presence, sustainable sufficient presence, 
both in terms of diplomacy and military forces to mitigate the 
risk of an attack against the United States.
    You know, and when does that end? Again, our argument right 
now is, let's first focus on the Afghan peace negotiation, see 
if we can set the conditions for reduction of violence such 
that it doesn't impact our interests. And then, if that doesn't 
work out, I think your constituents know that we have other 
options that the President can take in the future, you know, 
should he judge that Afghan peace negotiations are not going to 
be successful.
    I hope that answers your question.
    Mr. Higgins. Very thoroughly. General, again, thank you for 
being a voice of reason.
    Mr. Chairman, I have a second question to submit in writing 
unless we have a second round. And I yield. Thank you, good 
sir.
    Mr. Lynch. I thank the gentleman.
    The chair now recognizes the gentleman from Georgia, Mr. 
Johnson, for five minutes.
    Mr. Johnson. Mr. Chairman, Congresswoman Speier has to go 
at 12 o'clock, and so I've agreed to yield my--not yield my 
time, but allow her to go in front of me. So, if that is OK 
with the chair, I would defer to Congresswoman Speier.
    Mr. Lynch. Well, I thank the gentleman.
    The gentlelady from California is recognized for five 
minutes. Thank you.
    Ms. Speier. Thank you, Mr. Chairman. And my deep gratitude 
to Mr. Johnson for allowing me to go in front of him.
    First, to Senator Ayotte and to General Dunford and Ms. 
Lindborg, thank you for your service and for providing us this 
blueprint.
    I, like, I think, many of my colleagues, have grave 
concerns about the corruption that exists in Afghanistan that 
will not change. The fact that Inspector General Sopko has 
outlined for us in quarterly reports how money we have provided 
there has been misused should not be lost on any of us, but--
and that the opioid trade continues at a very robust level.
    So, I don't think we change the culture in Afghanistan. I'd 
be interested in each of your thoughts on that.
    I do believe that protecting women and girls and allowing 
them to continue to progress through school is an important 
component.
    And I would share General Dunford's supposition that we're 
going to have to be there. I hate saying that, but I do believe 
that a footprint of some sort, like we have a footprint in 
Europe and other places, is going to be necessary for our own 
personal security.
    So, I would just be interested in each of your comments on 
those principles.
    Ms. Lindborg. Well, I'll give it a start. And thank you for 
the question, Congresswoman Speier. And I'm appreciating your 
dogs in the background.
    Ms. Speier. I'm sorry about that.
    Ms. Lindborg. Because my cat's going in and out.
    But you raise a really important question. And corruption, 
of course, is deeply aligned with the kind of states that are 
prone to violent extremism. And that's why it is such a key 
component of the Global Fragility Act and a cornerstone of how 
we recommend reorienting our assistance programs.
    So, part of that is ensuring that we are aligned across all 
of our capabilities--our diplomacy, our security, our 
intelligence, and our development assistance--so that we're not 
inadvertently undermining each other.
    So, the first part of my answer is that I think we can do a 
better job of promoting better accountability, especially 
working with our donor partners, who all agreed in Geneva in 
November 2020 on very strict conditions over the next four 
years, that we will coherently work with the Afghan Government 
to address corruption.
    And the second part of my answer is that ultimately it is 
going to be up to the Afghans themselves. And that's why the 
development of civil society, the ability of women to have a 
much greater role, the rise of a new generation who has very 
different expectations of their government and demand more 
accountable government and ultimately a peaceful Afghanistan, 
that will be the key. Because it has to be driven by the 
Afghans who want this less corrupt, more peaceful nation.
    And our investments to support civil society have made a 
tremendous difference over the past 20 years. And you're right, 
we will need to continue to support them. But hopefully we can 
do so in a more effective way and at reduced levels, as we 
outlined in the report.
    Ms. Speier. Thank you.
    Ms. Ayotte. I would just add to what Nancy said that I 
think we're also anticipating that the aid be more focused.
    You know, if you look at our history of some of the 
projects I think I mentioned earlier that we've supported in 
Afghanistan, really focusing the support on key institutions 
and be prepared to hold them accountable, that we will, if we 
have to in certain areas, withdraw support with the government 
if they don't take certain actions that need to be taken.
    And this I know is not an easy question, but I think the 
Global Fragility Act does provide a very important framework 
that we have not had in the past for how we should be 
supporting countries that are fragile, like Afghanistan.
    General Dunford. Congresswoman Speier, it's good to see you 
again. And as you came on the screen, I thought, the last time 
I testified before you was about 18 months ago, and I thought 
it would be my last time testifying. And I think I celebrated, 
actually, that night that that was the end of my congressional 
testimony after a decade and a half of testifying. But here I 
am back before you again.
    But in response to your question, I think it's helpful for 
us to identify what we can do and, as the other co-chairs have 
mentioned, what the Afghans can do.
    What can we do with our allies? We can mitigate the risk of 
terrorist attacks, and we can mitigate the risk of mass 
migration. But when we talk about changing culture and 
addressing some of those underlying challenges that you 
identified, from corruption and opioids and so forth, all we 
can do in that regard is afford the Afghans an opportunity to 
make changes in those areas.
    I'm very humble about our ability to externally effect the 
change in the Afghan culture that gets after those problems. I 
am more optimistic, even though still humble, about our ability 
to address our national interests.
    So, I view this as kind of a twofold problem. One is, do 
the things that we have to do that are really relevant to our 
core national interests, and then set conditions where the 
Afghans can address those challenges that are unique to 
Afghanistan and really do require long-term changes in the 
character of government and long-term changes in the Afghan 
culture so that issues like women's rights are not behaviors 
that are conditioned on our international support but are 
actually an integral part of the culture.
    Ms. Speier. Thank you.
    My time has expired, and I yield back, Mr. Chairman.
    Mr. Lynch. The gentlelady yields back.
    The chair now recognizes the gentleman from Georgia, Mr. 
Johnson, for five minutes.
    Mr. Johnson. I thank the chairman. And thank you for 
holding this very important hearing.
    And I want to thank the panelists for your service to the 
Nation.
    And, in reading your report, you indicate--or you state 
that the Taliban have threatened to reinstitute jihad if all 
international troops, including and especially the U.S. troops, 
are not out of Afghanistan by May of this year.
    And that presents us with a bargain that is really 
untenable. In other words, we withdraw and then leave the 
situation to collapse and terrorism to then have a laboratory 
to explode within, or we stay the course and we do what appears 
to be nation-building, from seeing your standards for the U.S. 
being able to withdraw from Afghanistan totally.
    And so you recommend that we maintain our current force 
posture and continue with dialog with the Taliban, and I 
support that conclusion.
    What I want to ask is, you know, the Taliban get their 
financial and military support from somewhere. Where do they 
get their support from? Which countries?
    General Dunford. Congressman, I think a fair amount of 
their support comes from the drug trade. The last time I 
checked, it was in excess of 50 percent. And I don't have 
unclassified information on where the support comes from.
    We know that the Taliban have had sanctuary in Pakistan. We 
know that they have an active diplomatic effort--traveling to 
Moscow, traveling to Beijing, traveling to other countries. We 
know they travel in the Gulf. We know Iran has provided some 
material support----
    Mr. Johnson. Well, let me ask you this, General. The 
Taliban is an Islamic Wahhabi strain of Islam-based terrorist 
organization, is it not?
    General Dunford. It is a Sunni terrorist organization, yes.
    Mr. Johnson. And it's a Wahhabi-based Sunni terrorist 
organization? Is that correct?
    General Dunford. Similar ideology, yes, Congressman.
    Mr. Johnson. And the Wahhabi strain of Islam is a very 
extreme, fundamentalist strain which undergirds the Saudi 
monarchy, correct?
    General Dunford. The Saudi monarchy--I mean, Wahhabism 
obviously emanates from Saudi Arabia. It originated in Saudi 
Arabia, and there has been a historic relationship between the 
royal family, if you will, and Wahhabi religious leaders, yes.
    Mr. Johnson. Yes. And the Wahhabist strain of Islam is 
behind the 18,000-plus madrasas, or Islamic schools, that teach 
this fundamentalist strain of Islam. Isn't that correct?
    General Dunford. There's no question that the Taliban 
originates from the madrasas in Pakistan. That's correct.
    Mr. Johnson. And isn't it also true that the Taliban gets 
support from Saudi Arabia, from the Saudi Arabian Government?
    General Dunford. Yes, Congressman, I don't have any 
specific information certainly as a part of the Afghan Study 
Group that can point to any specific country as providing 
material resources to the Taliban. I'm not suggesting that's 
not true. I just can't--I can't comment on it.
    Mr. Johnson. Well, it just seems to me that if we identify 
the revenue sources of the Taliban, we can weaken them and 
maybe even eliminate them as a threat if we choke off their 
resources.
    And my suggestion is that Saudi Arabia may, in fact, be a 
major source of revenue and resource for the Taliban, and I 
think America's policy should not be at cross-purposes with 
itself. If we're supporting the Saudis, who are supporting the 
Taliban, we are at cross-purposes with ourselves.
    And those are the kinds of things that I believe we should 
look to in being able to solve this problem that we have. We 
don't want to leave Afghanistan and leave it to the Taliban to 
establish another Wahhabi-based nation, which would be a 
lawless nation. You know, drugs, terrorism would flow with 
impunity, and we would have to go back in at some point to 
protect our interests, like we had to go in after September 11 
of 2001, 20 years ago.
    So, you know, I mean, am I off base?
    General Dunford. Congressman, you're not.
    The only thing I'll tell you from my past experience is 
that, you know, identifying resources as one, you know, of the 
critical capabilities of the Taliban is something that we have 
looked at for a long time, and we've looked at trying to 
interdict those sources of revenue.
    In my experience, we've found that the sources of revenue 
for the Taliban are fairly diverse and fairly resilient. Again, 
a large part of it comes from the opioid trade inside of 
Afghanistan. But they have proven to be pretty resilient in 
their ability to develop resources. And I'm unaware of any 
single source of income that we could go after in the immediate 
future to have a big impact.
    But that's not something that--we should continue to look 
at that, for sure.
    Mr. Johnson. Thank you.
    Would any of the other panelists want to comment?
    Ms. Lindborg. Yes, Congressman. I would just add, you know, 
that one of the distinguishing characteristics of the Taliban 
is that they grew out of the more conservative Pashtun culture. 
And so it's a bit of a distinguishing characteristic from some 
of the other Wahhabi-based terrorist groups, in that their 
principal focus is on Afghanistan as opposed to looking outward 
to create a larger caliphate.
    And so, therefore, that's what makes the prospect of a 
negotiated peace possible, is that it's bringing together the 
Afghan sides and recognizing that they are--that the Taliban 
are connected to the Pashtunwali conservative parts, 
particularly present still in the more rural south, which is 
part of where they derive their ability to sustain themselves 
and some of their resources.
    Mr. Johnson. Thank you.
    Mr. Chairman, you've been more than liberal with the time, 
and I appreciate it. And, with that, I yield back.
    Mr. Lynch. I thank the gentleman. The time was well-spent.
    And just a side note. We have followed that chain of 
causation from the Wahhabi-supported and Wahhabi-sustained 
madrasas in northern Pakistan and southern Afghanistan. We have 
met with the royal family in Saudi Arabia, urging them--we 
don't have evidence that the Saudi Government is supporting the 
madrasas, but we do feel there's money coming out of the Gulf 
or maybe from members of the Saudi royal family who are 
supporting those efforts.
    So, the gentleman's target is spot-on. There are wider 
problems, as Ms. Lindborg has pointed out, with the Pashtun 
nature of this. But, like I say, the gentleman's remarks were 
well-received.
    I don't see Mr. Gosar on the board, so I'm going to go to 
the gentleman from Colorado, Mr. DeSaulnier, for five minutes.
    Mr. DeSaulnier. Thank you, Mr. Chairman. Gentleman from 
California.
    Mr. Lynch. The gentleman--I'm sorry, I'm sorry, I'm sorry.
    Mr. DeSaulnier. That's OK. You should say that I'm a native 
of the great Commonwealth of Massachusetts. Thank you, Mr. 
Chairman.
    I do want to thank all of my colleagues, first off, for the 
content and the tone of this hearing, particularly for you, Mr. 
Chairman, because you set that tone, and how constructive this 
is. And many of us yearn more for this type of focus and 
atmosphere.
    And to the witnesses, thank you so much for your careers 
and your dedication to peace and America's peace. Really a 
remarkable product here in a very complex situation that I am 
only somewhat familiar with.
    So, first to General Dunford: In a statement last weekend, 
the Taliban said: Anyone seeking extension of wars and 
occupation will be held liable for it, just as in the previous 
two decades.
    The inspector general in its most recent report said, and I 
quote, ``The Taliban is very likely prepared to resume its 
campaign of violence against the U.S. and coalition targets if 
it perceives that coalition forces have stalled or reversed 
course on the agreed upon withdrawal.''
    So, General, knowing that--and you've alluded to this in 
some of the other responses, but what is your expectation for 
what will happen? And how well can we protect not just Afghanis 
but, in particular, American forces who will remain there if 
the Biden administration suggests, as you are suggesting, that 
we revisit this accord?
    General Dunford. Congressman, thanks.
    And, you know, I would say right up front, I don't know 
whether the Taliban will accept a U.S. presence beyond the 1st 
of May, and I don't know what they'll do should we decide to 
stay past the 1st of May.
    I am compelled, again, by the areas of leverage that we 
have over the Taliban and by our judgment that they see the 
political process as the best way to achieve their long-term 
objectives. In other words, I think they are aware of the 
limitations of military force. I think they believe they can 
get leverage in the peace negotiations by increasing violence, 
and I think that's what we're seeing them do right now. I don't 
believe that they assess they can achieve their overall 
political objectives with a sustained military campaign, which 
is why they're in Doha right now and why they are talking to 
the Afghan Government.
    Should we decide to stay past the 1st of May and should the 
Taliban resume attacks against the United States, I leave it to 
those who are leading the fight right now to talk to specifics, 
but it would be my judgment that we would have to make some 
adjustments in our force posture and in our force composition 
to adequately protect our forces and continue to support the 
Afghan forces under those conditions.
    Mr. DeSaulnier. Thank you, General.
    Senator Ayotte and Ms. Lindborg, my questions originally 
were designed more around leverage and what kind of actual 
mechanisms we have. I really appreciate the recommendation that 
we don't be driven by the metric chronologically of time but of 
performance.
    Which leads me to, we know that the world is changing. We 
know now, with research and work, remarkable work, that 
neuroscientists and sociologists are working on now, that we as 
humans and cultures are only willing to accept so much change. 
We see it in our own country. And you've all alluded to the 
future and younger generations. And, of course, we've talked 
about this in regards to this region and its neighbors, 
particularly in Iran.
    So, the expectation that you can build these inclusive 
institutions and avoid the extractive institutions that 
unfortunately Afghanistan has been plagued with through its 
history, and the hope and the expectation that particularly 
younger people, who are being socialized in a very, very 
different environment from older generations, strikes me as 
really the key question and a lot to hope for. Not that we 
shouldn't, and I really think we have to. But the expectation 
that this critical mass is there, not just in the next few 
months but in the next few years, that these new generations 
can actually change what previous generations haven't been able 
to change in Afghanistan.
    So, Senator, if you could just respond to that. And maybe 
Ms. Lindborg and General Dunford, if you have any observations.
    Ms. Ayotte. Thank you, Congressman. I think you've made a 
very important observation and point.
    And it brings me back to where, when the Taliban were in 
charge, before the attack on our country and before we went to 
Afghanistan, the Afghanistan of today, 20 years later, there 
has been a growth, as we've mentioned, of civil society, of 
young people, of just the ability to use the internet and 
communicate and also robust press that was not present. And 
that's taken time, and that has caused some fundamental changes 
within the country.
    Now, it hasn't, obviously, changed the whole character of 
the nature of Afghanistan. They still have grave challenges 
with corruption and other issues. But that piece and that 
change of the configuration and more voices being able to 
actually speak out in that society does make it a very 
different circumstance for the Taliban to consider, if they 
think they're going to be able to go back and somehow govern in 
the way they did in 2001, if they want to be part of the 
government.
    And I think it's an important component of what we hope can 
be built on going forward despite all the challenges there.
    Mr. DeSaulnier. Ms. Lindborg?
    Ms. Lindborg. Yes. Thank you very much for your question 
and your observations.
    And, you know, we've learned a lot from previous decades of 
nation-building, and I think one of the core lessons is that 
people have to build their own nation. And, therefore, it will 
be the power, the energy, and the demand of this new generation 
and women who ultimately will determine what Afghanistan looks 
like. And that's the only way that change will occur.
    One of the last trips I made before the pandemic shut 
everything down was to Afghanistan, and I had a chance to meet 
with a wide swath of women, youth, faith leaders, government 
leaders, you know, really courageous human rights workers, and 
the Helmand peace marchers in both Jalalabad and Kabul. And, 
you know, there is--I think there is a palpable new energy and 
demand for peace. People are just really tired of the war. And 
they do have the ability, I believe, to make a difference in 
how this all goes forward.
    And our help to get a viable peace process supported is the 
bet that we're making with our recommendations.
    Mr. DeSaulnier. Thank you.
    General Dunford. Congressman, if I could just make one 
quick followup as the committee considers this.
    You know, when I think about the problem, I don't think 
about it as, can we effect the changes that you talked about? I 
agree with you in terms of how difficult they will be. I think 
we should look at the problem we're trying to solve as one of, 
can we reduce the level of violence and allow those changes and 
allow the political differences to be addressed in an 
environment where there's a reduced level of violence and a 
reduced terrorist threat?
    So, in other words, I have a much humbler appreciation for 
what can be achieved in the near term. And I think if we look 
at how long will it take to effect fundamental cultural changes 
and address the economy and address the character of the 
government, I do think we're talking about, you know, a long, 
long time for some of those issues to be addressed.
    What I think is more realistic is for us to come out of the 
Afghan peace negotiations with a peace agreement that actually 
does result in the reduction of violence and actually does 
allow these political differences that are very real and need 
to be addressed to be addressed in an environment where we 
don't have a terrorist threat and there's reduced violence and 
there's a political framework within which these issues are 
being addressed. That, to me, is what winning would look like.
    Mr. DeSaulnier. Well, thank you again. Really, really 
fascinating. And I really want to thank the Peace Institute as 
well. What a valuable, valuable resource.
    And, Mr. Chairman, I will yield back, but I want to thank 
you for letting me tease you about the geographic issues, 
differences between Colorado and California. And I realize, as 
a native of Massachusetts, when I lived there, I frequently got 
those states confused. Anything west of West Stockbridge was 
always confusing to me.
    Mr. Lynch. Anything west of Worcester is the same, as far 
as I'm concerned.
    Mr. DeSaulnier. The home of my alma mater, Worcester. Thank 
you.
    Mr. Lynch. Well, we are very--and I apologize to the 
gentleman from California. We are very proud of the gentleman's 
connection to Massachusetts. It was certainly California's gain 
and Massachusetts' loss.
    But, in closing, you know, we've had the presence and the 
participation of our panelists for two hours now, so I think I 
should bring this to a close, even though I have more questions 
and I would like to further discuss this.
    In closing, I want to thank our panelists for their 
wonderful work and their willingness to help the committee with 
its task. I think this study, this report, could be extremely 
helpful to the administration, and I'm sure they are weighing 
it seriously.
    I want to commend my colleagues for their participation, 
despite the weather all across the country, in this important 
conversation.
    With that, without objection----
    Mr. Grothman. Could I----
    Mr. Lynch. Is somebody seeking time?
    Mr. Grothman. Yes. This is Congressman Grothman.
    Mr. Lynch. Oh, Mr. Grothman, I'm sorry.
    Mr. Grothman. Before you break up, I'd like to thank you 
for having the hearing. I, quite frankly, wish it'd go another 
couple more hours, because I have a lot of questions to ask.
    I want to emphasize that, at least as far as me, I realize 
we have important obligations as a world power. We have a 
fraction of the number of troops there that we did a few years 
ago, and I have no problem voting if the feeling is it's 
necessary to keep those troops there years more, if that's the 
appropriate thing.
    I wouldn't mind if--it's unfortunate we have a hearing like 
this that has to be public, because, of course, people are 
listening in to what we say who might not be considered friends 
of the United States, and that makes things difficult. I wish 
we would've had some time to get into the potential roles that 
Iran and Pakistan are going to play if we left, which I think 
is relevant. And I appreciate Congressman Johnson's comments as 
to where the money is coming from and if any of the money is 
coming from people who we think are our friends.
    But I'd like to thank you for having it. If you want to do 
another one of these a month from now or two months from now, 
I'd be happy to do another one, because I'm sure I could find 
another 15 or 20 minutes of questions. But, again, thank you 
for having the hearing.
    Mr. Lynch. I thank the gentleman.
    And just so we all understand, Inspector General Sopko, the 
Special Inspector General for Afghan Reconstruction, has his 
report coming out in two weeks. It's a follow-on to many of the 
same issues we're talking about here but on a granular level 
with respect to some of the projects that Ms. Foxx identified, 
the spending of money, the corruption, all that.
    So, that will give us an opportunity to revisit a lot of 
these issues and have a wider discussion as well, so I'm 
looking forward to that. And I think that's scheduled in two or 
three weeks.
    But, with that--and I appreciate the gentleman's remarks.
    Without objection, all members will have five legislative 
days within which to submit additional written questions for 
the witnesses to the chair, which will be forwarded to the 
witnesses for their response. I ask our witnesses that if 
questions are submitted to them to please respond as promptly 
as you are able. Again I want to thank our panelists for your 
wonderful and patriotic work, this meeting is now adjourned.
    Mr. Lynch. Again, I want to thank our panelists for your 
wonderful and patriotic work.
    This hearing is now adjourned. Thank you.
    [Whereupon, at 12:31 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
